a.

(a2
No. _19A612fr
Iii The Supreme Court Of The United States
Lee Mulcahy, PhD, pro se
V.
Aspen Ski Company

APPLICATION FOR ErrENsioN OF TIME FOR rp.41TrnON OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT
RULE 29.6 STATEMENT
None of the petitioners is a nongovernmental corporation. None of the petitioners
has a parent corporation or shares held by a publicly traded company. The Defendant,
Aspen Skiing is a corporation.

TO THE HONORABLE SONIA SOTOMAYOR, ASSOCIATE JUSTICE OF THE SUPREME
COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR THE TENTH CIRCUIT:

Pursuant to Supreme Court Rules 15, 22, 30 and 33.2, Petitioner Lee Mulcahy, pro se,
respectfully requests, a 60-day extension of time, up to and including March 16, 2020, to
file a petition of certiorari on the merits to the United States Supreme Court in order to
secure legal counsel. The Colorado Supreme Court denied my writ of certiorari on
August 19, 2019. The jurisdiction of this Court was invoked under 28 U.S.C. ยง 1257(a),
and the time to file a timely reply brief was extended until January 16, 2019 by Justice

Sotomoyer. This application is timely because it has been filed ten days prior to the date
on which the time for filing the reply brief is to expire.
The question presented is whether the ban instituted by Aspen Skico on public
lands while I was distributing a living wage union flyer violated my constitutional
rights to free speech under the first amendment and Colorado's Constitution.
(Attaching copies of Colorado Supreme Court, Colorado Court of Appeals, and
District Court opinions as Appendix A)
Aspen, Colorado, is a town of 6788 residents. Aspen Skiing employs over 4000
people in the town of 6788.
I am an Eagle Scout and have volunteered thousands of hours for my community.
Our Sheriff believes that the ban it is not American. My paintings are in and have
been shown in museums in both Berlin and Nairobi and galleries all over the
world including Aspen, Carbondale, Prague and Beijing. I am not an attorney.

protest and live in peace deserves the respect of our government and all that live
under it.
Some view this as my biggest mistake: I blew the whistle on Aspen Skiing's illegal
labor policies. Aspen Skiing ("Skico") (owned by Chicago billionaire Lester
Crown) was required by the National Labor Relations Board ("NLRB") to change
their illegal laws and corporate structure. Subsequently, Skico and their
sycophants have sought to make an example for anyone else attempting to make
them obey state and federal labor laws. Their Vice President complained to the
newspaper that the National Labor Relations Act was a tired "old law" that was
not relevant to today's current conditions. It's still the law. The NLRB forced
Skico to sign settlements with me in 2011. Why was speaking out a mistake? My
neighbors say that in Aspen everyone knows that "you cannot criticize the Crown
family" (nee Minsky.) Why? Because the Crowns own General Dynamics.
Lester Crown's bribery of public officials and continually getting caught lying
about his involvement in this felony has been the subject of numerous articles in
both the Chicago Tribune & New York Times. When I served this lawsuit by
taping it onto Skico's door after they refused service by the Sheriff
District Judge Chris Seldin admitted in court that he was a member of the Aspen
Institute's Lester Crown Society of Fellows for over a decade. Colorado's court of
appeals wrote that "the judge was a member of the Society of Fellows of the
Aspen Institute periodically over a fourteen-year (14) period...." Annual
membership, which promises "access," begins at $2500.00. To many Americans,

an annual $2500 donation by an assistant county attorney to an organization
controlled by out of state billionaires for over a decade would indicate "bias." Not
according to our justice system: It's just like the police. When the system
investigates itself, nothing happens. Furthermore, Lester's son, Jim, chairs the
Aspen Institute's board. Former President Obama describes Jim and his artist
wife, Paula, as his "best friends." Several local judges declined to declare the
flyer as "protected free speech" despite multiple requests. No one wants to cross
the Crown. Why did the court sit on the case for years and multiple judges refuse
to declare the flyer as "protected free speech?" Retaliation against protected free
speech is illegal.
10. Once Lester's captured judge Chris Seldin was appointed in Aspen by the
Democratic governor, the Democratic machine that has held power for decades
moved to have me evicted from the home my family built with our own hands.
Previously, the Aspen Institute's attempted restraining order against me went to
the Colorado Supreme Court and the Judge's beloved Institute lost. When you sue
a powerful billionaire in America, expect to to be the defendant and allegedly
unrelated lawsuits. Colorado's history on judicial rulings for labor activists has
been well documented and frankly, sad. We are grateful to God and the
community for their love and support, especially the Gorsuch's and Father John
Hilton. Perhaps, local politician cum judge Chris Seldin believes that in the
United States of America if you punish a whistleblower, you'll be rewarded.
Phillip Taft and Phillip Ross, both scholars of American labor violence concluded

that "there is no episode in AMerican labor history in which violence was as
systematically used by employers as in the Colorado labor war of 1903 and 1904."
In these battles between labor (little people) and capital, between miners and
mine owners, the state government with one exception sided with capital. And
so it continues.
Tribalism in humans run deep. My family volunteers our time and resources with
our church providing clean water wells and humanitarian aid in Kenya where
there are 42 tribes. Here in the United States, some state we have two main
tribes: the Republicans and the Democrats. The Democrats control Aspen, its
city council and board of county commissioners which have blocked all hearings,
settlements and mediation. The Mulcahy's are Tea Party Republicans.
Out of state owner of Aspen Ski Lester Crown and his Judge Chris Seldin are
Jewish. My family feels crucified by both. History shows tribalism is
destructive. I would note that my family in the spirit of community put my
Father's name on the first and second floors of the Jewish temple on Main Street
of Aspen in the spirit of community. Both local rabbis signed our petition for a
public hearing of over 2000 signatures to Aspen's city council and Judge Seldin.
Justice Brandeis stated in his dissent in Olmstead v. United States, "Decency,
security and liberty alike demand that government officials shall be subjected to
the same rules of conduct that are commands to the citizen. In a government of
laws, existence of the government will be imperiled if it fails to observe the law

ctvernmen

e.cotrie

CM

15. Chicago billionaire Lester Crown controls one of America's largest fortunes. The
New York Times writes:. "On the face of it, the issue seemed less than
monumental: the Pentagon was seeking to revoke a businessman's top-secret
security clearance. The significance lay in the nature of the evidence, the financial
and political stakes involved and the identity of the accused: 61-year-old Lester
Crown, head of the billionaire Chicago family that controls America's largest
defense contractor, the General Dynamics Corporation. Among those who
appeared or offered affidavits in his behalf: Three former Secretaries of State, two
former Secretaries of Defense, and former Secretaries of Treasury and Commerce.
Henry Kissinger praised Crown's 'extraordinary probity' Robert McNamara had
'every confidence in his integrity.' David Packard, co-founder of the
Hewlett-Packard Company and head of a Presidential commission that had just

recommended sweeping changes in the organization of the Defense Department,
vouched for his 'trustworthiness.'"
16. Consequently, it has been very difficult to obtain legal counsel. No one wants to
take this case on even with a paid retainer. I am a peon taking on a powerful
ruthless billionaire who entertains Supreme Court justices in his homes and
tweets out their photos. No one wants to tackle this family. The last bastion of a
free society is the ability to criticize our masters.
Accordingly, Pro Se petitioner respectfully prays that an order be entered extending the
time to file a reply brief on the merits for 60 days, up to and including March 16, 2020, to
obtain legal counsel for assistance in filing this petition.

Respectfully submitted,
Lee Mulcahy, Pro Se
53 Forge Rd., Aspen CO 81611 970.429.8797
January 2, 2020

CERTIFICATE OF SERVICE
I certify that a true and accurate copy of this extension placed in the United
States mail, postage prepaid, and addressed to the following parties on January 2, 2020:
Tierney Lawrence LLC
University of Colorado "Adjunct Faculty" Ed Ramey
225 E. 16th Avenue, Suite 350
Denver, CO 80203
eramey@tierneylawrence.com
(720) 242-7585
(303) 949-7676 (cell)

